                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL




                                        January 16, 2003

MEMORANDUM

SUBJECT:       Final Status of Preliminary Research Results on Improper Contract Payments
               Report No. 2003-2-00003

FROM:          Alan Bogus /S/
               Project Manager

TO:            Judy Davis, Director
               Office of Acquisition Management
               Office of Acquisition and Resources Management

               Ronald Bachand, Director
               Financial Services Division
               Office of the Chief Financial Officer

               Juliette McNeil, Director
               Financial Management Division
               Office of the Chief Financial Officer

The Office of Inspector General (OIG) of the Environmental Protection Agency (EPA) has
completed its preliminary research on improper contract payments. This memorandum follows
on to our previously issued report, “Status of Preliminary Research Results on Improper Contract
Payments (2002-M-00010, March 28, 2002). This current memorandum summarizes the results
of our preliminary research, and provides suggestions and a recommendation for corrective
action. We do not plan to conduct any additional work on improper contract payments at this
time. We appreciate your staff’s cooperation during this portion of our work.

Action Required

In accordance with EPA Manual 2750, you are requested to provide a written response within
90 calendar days of the date of this memorandum. Since this memorandum primarily addresses
recommendations for maintaining statistics on improper contract payments, we request the
Director, Financial Services Division, as the primary action official, to take the lead in
coordinating and providing us a written response. A corrective action plan for agreed-upon
actions, including milestone dates, should be included. We have no objections to the further
release of this memorandum to the public. For your convenience, this report will be available at



                                                1
http://www.epa.gov/oig/eroom.htm. Should you or your staff have any questions, please contact
me at (202) 566-2538.

Scope and Methodology

We limited our work to reviewing the data in the Agency’s Contract Payment System (CPS). We
looked at CPS data for the purpose of developing profile indicators of trends and anomalies as a
basis to identify potential improper contract payments. Such work was limited to reviewing
selected invoices and supporting documents to validate the profile. We performed a review of
the accuracy of contractors’ bank routing and account numbers in CPS to validate a profile to
identify improper contract payments. Utilizing the results found, we used “data mining” and
analytical techniques to compare such information to other Agency databases. We matched the
database of contractors’ bank routing and account numbers to a database of employee bank
routing and account numbers to identify possible trends and anomalies. Similarly, we matched
the database of contractors’ and EPA employees’ identification numbers.

We also performed a review of credit invoices in CPS to identify potential improper contract
payments. We expanded upon our previous report’s findings and reviewed a sample of invoices
for contractors with the predominance of revised invoices. We followed up on the Agency’s
ongoing Task Force efforts to review improper payments in light of the ongoing government-
wide initiatives and related guidance to reduce improper payments.1 We held discussions with
EPA project officers, contracting officers, and finance personnel, in addition to various financial
institution representatives. Our work was conducted from May 2002 through October 2002.
We conducted our preliminary research in accordance with the general standards of the
Government Auditing Standards, as issued by the Comptroller General of the United States.

Our results are based on a limited review of more than 47,600 transactions and 1,450 contracts in
CPS with approximately $2 billion in disbursements for fiscals 2000-2001. Therefore, our
results cannot be used to provide an overall assessment as to the causes and extent to which
improper contract payments may or may not occur at EPA, nor provide an overall assessment of
the validity of the contract payments. While our work included understanding the internal
controls over the contract payment process, we did not perform an assessment of those controls.
It should be noted that our annual financial statement audits have not disclosed any significant




         1
           The President’s Management Agenda, Fiscal 2002, the Office of Management and Budget’s Federal
Financial Management Report (May 2002), and numerous General Accounting Office reports highlight the impact
of improper payments on federal programs and the need for actions to strengthen the system of internal controls over
areas where improper payments occur. Also, under the fiscal 2002 Defense Authorization Act (Public Law 107-107,
subchapter section 831), federal agencies are required to use recovery auditing methods to identify and track
overpayments to contractors. The law requires the Office of Management and Budget to issue guidance on
implementing the recovery auditing program. Similarly, the Improper Payments Information Act of 2002 (Public
Law 107-300) directs each executive agency to review all of its programs and activities annually, identify those that
may be susceptible to significant improper payments, estimate the annual amounts of improper payments, and submit
those estimates to Congress before March 31.

                                                          2
control weakness in the contract payment process. We applied the Office of Management and
Budget’s guidance for “erroneous payments” when assessing improper contract payments.

Results in Brief

Consistent with our prior report,2 we continued to find a limited number of instances where
improper contract payments had occurred on EPA contracts. While we did not find any
additional improper contract payments based on our review of credit invoices, we believe the
existence of credit invoices and the basis for their occurrence indicates that improper contract
payments occurred. In addition, we found an instance where EPA made an improper contract
payment, based on our review of invoices for contractors with a predominance of revised
invoices.

Although we found a number of instances in which payments were made to different contractors
with identical bank routing and account numbers, these payments did not result in the Agency
making improper contract payments. In addition, we did not find any improper contract
payments based on our analysis of matching contractors’ and EPA employees’ bank routing and
account numbers or identification numbers. Finally, while we would concur that the number of
improper contract payments found to date seemed to be minimal and the Agency appears highly
focused on providing high quality and accurate contract payments, we found the Agency does not
keep statistics on improper contract payments to validate the extent, magnitude, and causes of
improper contract payments.

We recommend that the Agency develop statistics on improper contract payments to validate the
extent, magnitude, and possible causes of improper contract payments. We continue to
encourage the Agency to expand the scope of its Task Force efforts from its current assessment
of only the Agency’s State Revolving Fund programs to its performing an overall assessment of
improper payments for all Agency programs and activities.

Improper Contract Payments Found in our Review of Sample Invoices

Consistent with our prior report, we continued to find a limited number of instances where
improper contract payments had occurred on EPA contracts. We believe that improper contract
payments occurred based on our review of credit invoices and a review of invoices for
contractors with a predominance of revised invoices.




        2
           During our prior review, we found a limited number of instances where the Agency (1) made duplicate
contract payments, and (2) submitted payment information with incorrect contractor Taxpayer Identification
Numbers to the Department of Treasury. These instances of duplicate payments indicated to us that improper
contract payments were occurring on EPA contracts. However, we had not been able to determine the causes and the
extent to which improper contract payments were occurring. Our initial review disclosed that in most instances, the
Agency identified and promptly corrected any duplicate payments. We did not believe at that time that the limited
number and scope of these instances were significant to warrant recommendations for corrective action.

                                                        3
Using credit invoices3 in CPS as a potential profile indicator, we selected a non-statistical sample
of 31 credit invoices out of the universe of 545 credit invoices totaling $6.4 million. While we
did not find any additional improper payments based upon our review of credit invoices, we
believe the existence of credit invoices and the basis for their occurrence indicates that improper
contract payments had occurred on EPA contracts. While 8 of the credit invoices in our sample
involved indirect rate/provisional cost adjustments and were not deemed as improper, we found
that the remaining 23 credit invoices were a result of correcting a previous improper contract
payment (see table below). The results indicate potential systemic causes that allowed the
improper payments to occur. In addition, we could not validate that credit invoices in CPS could
be used as a profile indicator for identifying additional potential improper contract payments.


                                     Type of Occurrence                                  No. of Instances

               Contractor submitted cost adjustments/overcharges                                 12

               Reversal of previous duplicate payments                                             7

               Adjustments for additional suspensions previously paid                              4

                      Total                                                                      23




Expanding upon our previous report’s work on revised invoices, we reviewed contractors in CPS
with the predominance of revised invoices. We selected a non-statistical sample of 29 invoices
from a universe of all invoices for 3 of the top 5 contractors.4 We considered the invoice
amount, invoice amount paid, period of performance, delivery/task orders that might be
duplicated, and the sequence of invoice numbers. We identified to the Agency that a duplicate
payment for $318 occurred and necessitated correction; payment was recovered and additional
internal controls implemented in fiscal 2002 to prevent a recurrence.

Identical Contractor Bank Routing and Account Numbers

We found that payments made to different contractors with identical bank routing and account
numbers did not result in the Agency making improper contract payments. Using identical bank
routing and account numbers in CPS as a profile indicator, we found that $229 million in
payments were made to 25 contractors under 10 identical bank routing and account numbers.



         3
           Credit invoices are negative invoice amounts or amounts due to EPA from a contractor; credit invoices are
a normal part of the business cycle in contract payments. EPA offsets the amount due from the contractor against the
next contract payment. Credit invoices can result from a valid payment, as the payment was initially proper but
subsequently adjusted (indirect rate/provisional costs adjustments). Credit invoices can also result from an improper
payment, which is a payment that should not have been made (contractor adjustments/overcharges, duplicate
payments, suspension adjustments), when the improper payment is subsequently corrected.

         4
             The 3 contractors represented 25 percent, or 666 revised invoices, of a total of 2,667 revised invoices.

                                                             4
Using the contractor name in CPS, we attempted to validate the profile indicator that different
contractors should not be receiving payments under identical bank routing and account numbers.
We found that the payments were not improper because the contractor had either made an
“assignment of claims” 5 or had merged or been acquired during the period.

Comparison of Contractor and EPA Employee Data

We did not find any improper contract payments based on our analysis of matching contractor
and EPA employee databases. To determine whether any relationships exist between contractors
and EPA employees, we used “data mining” and analytical techniques to compare information in
CPS to other Agency databases. We matched the database of contractors’ bank routing and
account numbers to a database of EPA employees’ bank routing and account numbers. Similarly,
we compared the contractors’ Taxpayer Identification Numbers to EPA employees’ Social
Security Numbers. We did not find any matches. Accordingly, we could not develop additional
profiles to identify potential improper contract payments.

Statistics Lacking on Improper Contract Payments

The Agency does not keep statistics on improper contract payments to validate the extent,
magnitude, and causes of improper contract payments. Our previous report noted that the
Agency appears highly focused on providing high quality and accurate contract payments.
However, despite the system of controls over processing contract invoice payments and annual
quality assurance reviews, improper contract payments occurred. While we would concur that
the number of improper contract payments found to date seemed to be minimal, the Agency has
not developed statistics to measure improper contract payments. Without such statistics, the
Agency cannot determine how often improper contract payments may occur, the nature of the
improper payments, or the causes of the improper payments. Statistics could include recoveries
and refunds; also statistics on improper payments prevented could indicate contractor procedural
problems, emerging fraud scams, or EPA control weaknesses or inefficiencies.

Statistics on improper contract payments are also important because improper payments can
impact a program’s ability to achieve its intended outcome. Government-wide initiatives and
related guidance have all cited the need to reduce improper payments. Agencies have been
encouraged to perform risk assessments of their programs and activities. If program risks are
known and quantified, then Agency management can determine whether the problem is
significant enough to require corrective action, and assess whether any additional cost-effective
controls are needed to reduce improper payments. Such statistics would also be important as the
Agency begins to assess the need to establish a cost recovery audit program.




         5
         Federal Acquisition Regulation 52.232-23, “Assignment of Claims,” notes a contractor under the
Assignment of Claims Act may assign its rights to be paid amounts due or to become due as a result of the
performance of this contract to a bank, trust company, or other financing institution, including any Federal lending
agency.

                                                          5
Expanded Scope Encouraged on the Agency’s Task Force on Improper Payments

As previously reported, based on guidance from the Office of Management and Budget, the
Agency established an Agency-wide Task Force to review improper payments applicable to the
Clean Water and Drinking Water State Revolving Fund (SRF) programs, which total $2.2 billion
in the Agency’s operating plan. Since our previous report, the Agency’s assessment of these
programs found a minimal number and amount of SRF improper payments, and determined that
existing processes and controls over SRF disbursements were reasonable. The Agency
developed recommendations related to SRF improper payments, including assigned
responsibility for monitoring improper payment rates and ensuring corrective actions are taken
when improper payments are found.

Consistent with our prior report, we continue to encourage the Agency to expand the scope of its
Task Force efforts to perform an overall assessment of improper payments for all Agency
programs and activities. We believe the Task Force efforts should not be limited to the SRF
programs; the efforts should be expanded consistent with government-wide initiatives and
guidance to assess all Agency programs and activities. For example, approximately 58 percent of
the Agency’s $8 billion in total costs are associated with grant programs, and only about half of
that total is associated with the SRF programs. Other grant programs include categorical
assistance to states and tribes, and research grants to universities and other nonprofit institutions.
These programs should also be assessed for potential improper payments.

OIG Completes Research Activities on Improper Contract Payments

We do not plan to continue our research to develop profile indicators that would possibly identify
additional improper contract payments. While we found instances of improper contract
payments and identified some trends and anomalies, we believe the results do not provide a basis
for continuing our work.

We continue to stress the need for valid statistical data on improper contract payments. We
believe a further review of credit invoices in CPS would (1) provide indicators as to potential
causes for some improper contract payments, and (2) allow the Agency to begin to quantify the
amount of improper contract payments. We also believe the Agency can conduct additional
analysis using revised invoice submissions as a valid profile indicator, based on our prior report,
to look for additional potential improper contract payments.

Recommendation

We recommend that the Director, Financial Services Division develop statistics on improper
contract payments to validate the extent, magnitude, and possible causes of improper contract
payments as related to the CPS. Once statistics are developed, an assessment should be
performed to determine whether an Agency cost recovery program needs to be established.




                                                  6
cc:   Ron Kovach, OAM
      Joan Wooley, OAM
      John Oliver, OAM
      Dale Roberson, OAM
      Maryann Froehlich, OC
      Joe Dillon, OC
      Milton Brown, FSD
      Guy Hickey, FSD
      Douglas Barrett, RTP-FMC
      Gloria Owens, RTP-FMC
      Bob Cluck, FMD
      Lorna McAllister, FMD
      Howard Corcoran, OARM




                                 7
